No.

IN THE

SUPREME COURT OF THE UNITED STATES

STEVEN HATTON,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTION PRESENTED FOR REVIEW
Whether the court of appeals improperly denied
the Petitioner a certificate of appealability under 28
U.S.C. § 2253(c) on his ineffective assistance of counsel
claims.

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW . . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . iv

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISION
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . . . 2

H.

REASON FOR GRANTING THE WRIT . . . 16
The question presented is important . . . . . . 16

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 47

iv
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Acosta v. State, 798 So. 2d 809
(Fla. 2d DCA 2001) . . . . . . . . . . . . . . . . . . . . 32
Bowers v. State, 929 So. 2d 1199
(Fla. 2d DCA 2006) . . . . . . . . . . . . . . . . . . . . 44
Clark v. State, 690 So. 2d 1280 (Fla. 1997) . . . . 18-19
Durant v. State, 647 So. 2d 163
(Fla. 2d DCA 1994) . . . . . . . . . . . . . . . . . . . . 40
Griffith v. State, 723 So. 2d 860
(Fla. 1st DCA 1998) . . . . . . . . . . . . . . . . . . . . 34
Hatton v. State, 996 So. 2d 865
(Fla. 4th DCA 2008) . . . . . . . . . . . . . . . . . . 2-3
Hatton v. State, 244 So. 3d 271
(Fla. 4th DCA 2018) . . . . . . . . . . . . . . . . . . . . 5
Mathis v. State, 973 So. 2d 1153
(Fla. 1st DCA 2006) . . . . . . . . . . . . . . . . . . . 24
McLean v. State, 934 So. 2d 1248 (Fla. 2006) . . . . . 34
McMann v. Richardson, 397 U.S. 759 (1970) . . . . . . 2
Miller-El v. Cockrell, 537 U.S. 322 (2003). . . . . 45-46

v
Moton v. State, 697 So. 2d 1271
(Fla. 1st DCA 1997) . . . . . . . . . . . . . . . . . . . 32
Roe v. Flores-Ortega, 528 U.S. 470 (2000). . . . . . . . 42
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . 18, 24, 41
Williams v. State, 110 So. 2d 654 (Fla. 1959) . . . . . 27
Williamson v. State, 839 So. 2d 921
(Fla. 2d DCA 2003) . . . . . . . . . . . . . . . . . . . . 40
Woodard v. State, 978 So. 2d 217
(Fla.1st DCA 2008) . . . . . . . . . . . . . . . . . . . . 35

b.

Statutes

§ 90.402, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . 32
§ 90.403, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . 32, 35
§ 90.404, Fla. Stat. . . . . . . . . . . . . . . . . . . . 13, 32, 37
§ 90.609, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . . 32
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . i
28 U.S.C. § 2253(c)(2). . . . . . . . . . . . . . . . . . . . . 16, 46

vi
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . passim

c.

Other

Fla. R. Crim. P. 3.850. . . . . . . . . . . . . . . . . . . . . . . 3-4
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . 2

1
The Petitioner, STEVEN HATTON, prays the
Court to issue its writ of certiorari to review the
order/judgment of the Eleventh Circuit Court of
Appeals entered in this case on February 10, 2021. (A3).1

D. CITATION TO OPINION BELOW
The order below was not reported.

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1254 to review the final judgment of the
Eleventh Circuit Court of Appeals.

References to the appendix to this petition will be
made by the designation “A” followed by the appropriate
page number.
1

2
F.
CONSTITUTIONAL
INVOLVED

PROVISION

The Sixth Amendment provides that “[i]n all
criminal prosecutions, the accused shall enjoy the right
to . . . have the Assistance of Counsel for his defence.”
“[T]he right to counsel is the right to the effective
assistance of counsel.” McMann v. Richardson, 397
U.S. 759, 771, n.14 (1970).

G. STATEMENT OF THE CASE AND
STATEMENT OF THE FACTS
1.

Statement of the Case.

In 2007, the Petitioner was convicted following
a jury trial of three counts of lewd or lascivious
molestation

and

sentenced

to

fifteen

years’

imprisonment. On direct appeal, the Florida Fourth
District Court of Appeal affirmed the Petitioner’s
convictions and sentence. See Hatton v. State, 996 So.

3
2d 865 (Fla. 4th DCA 2008).
Thereafter, the Petitioner timely filed a state
court motion for postconviction relief pursuant to
Florida Rule of Criminal Procedure 3.850.

The

Petitioner raised several claims in his rule 3.850
motion – three of which are the subject of the instant
petition: (1) defense counsel was ineffective when, after
telling the jury to find the Petitioner guilty during
opening

statements,

he

failed

to

correct

his

misstatement before the jury by asking to address the
jury to correct his mistake, to move for mistrial, or take
other action to correct his misstatement; (2) defense
counsel was ineffective by failing to file a motion in
limine or otherwise seek to exclude from evidence those
portions

of

enforcement

the

Petitioner’s statement

officials

which

were

to

law

inadmissible

character evidence and which bolstered the credibility

4
of the alleged victim and those portions of the
statement which constituted evidence of other wrongs
or bad acts, were not relevant to the charged offenses,
and for which the prejudicial impact far outweighed
any possible probative value; and (3) defense counsel
was ineffective when he introduced into evidence a
prior inconsistent statement of the alleged victim
wherein the alleged victim had told a police officer that
during the allegations that formed the basis of count 2
the Petitioner had told the alleged victim that he
“wished he could put his penis inside me.”

An

evidentiary hearing on the Petitioner’s rule 3.850
motion was held on March 9, 2016. On September 1,
2016, the state postconviction court denied the
Petitioner’s rule 3.850 motion. On appeal, the Florida
Fourth District Court of Appeal per curiam affirmed
the denial of the Petitioner’s state postconviction

5
motion. See Hatton v. State, 244 So. 3d 271 (Fla. 4th
DCA 2018).
Subsequently, the Petitioner timely raised the
claims set forth above in a petition filed pursuant to 28
U.S.C. § 2254. On December 2, 2019, the magistrate
judge

issued

a

report

and

recommendation

recommending that the Petitioner’s § 2254 petition be
denied.

(A-30-134).

Then, on May 14, 2020, the

district court denied the Petitioner’s § 2254 petition.
(A-25-29). On February 10, 2021, a single circuit judge
denied a certificate of appealability on the Petitioner’s
§ 2254 claims. (A-3).
2.
Statement of the Facts – the State
Court Postconviction Evidentiary Hearing.
Jack Fleischman.

Mr. Fleischman, the

Petitioner’s trial attorney, admitted that his final
statement to the jury during his opening statements

6
was a “misstatement” (i.e., when Mr. Fleischman told
the jury “we feel confident that at the end of this case
you will, in fact, find Hatton guilty on all counts”). (A135). Mr. Fleischman stated that he did not remember
whether his client or his client’s mother subsequently
told him about the misstatement during the trial.
Mr. Fleischman conceded that nothing precluded
him from seeking to redact portions of the Petitioner’s
taped interrogation. However, Mr. Fleischman stated
that he wanted the entire tape of the interrogation
played for the jury, although he said “I can’t tell you
why now.” Mr. Fleischman testified that he has won in
previous cases “with whole tapes coming in,” but he
acknowledged “maybe that’s what lost it in this case.”2
When asked about why he impeached the

Mr. Fleischman said “I’m not an idiot[;] I may have
been in this case . . . .”
2

7
alleged victim with a purported prior inconsistent
statement that was more damaging than the alleged
victim’s in-court testimony, Mr. Fleischman stated “I
don’t care what it said if it’s different from what she
said in trial . . . .” However, Mr. Fleischman added “I
hear what you’re saying because, you know, it sounds
bad . . . .”
Peggy Ann McElhenny. Ms. McElhenny, the
Petitioner’s mother, stated that she was in the
courtroom during her son’s trial, and she said that she
could see the jurors from where she was seated. Ms.
McElhenny testified that during defense counsel’s
opening statement at trial, defense counsel said “we
feel confident that at the end of this case you will, in
fact, find Hatton guilty on all counts.” Ms. McElhenny
stated that when the jurors heard defense counsel say
“find Hatton guilty on all counts,” the jurors “were

8
looking at each other and they were just, ‘Did I hear
what I think I heard?’” Ms. McElhenny testified that
during a subsequent break in the trial, she informed
defense counsel about his mistake.
The Petitioner. The Petitioner testified that
during defense counsel’s opening statement at trial,
defense counsel said “we feel confident that at the end
of this case you will, in fact, find Hatton guilty on all
counts.” The Petitioner stated that when the jurors
heard defense counsel say “find Hatton guilty on all
counts,” all the “jurors gave me the most puzzling look
I’ve ever seen probably in my life.” The Petitioner
testified that Juror Luna furrowed his brow, squinted,
and looked at him and defense counsel as if to ask “why
would he say that if he’s the defense attorney?” The
Petitioner testified that during a subsequent break in
the trial, he informed defense counsel about his

9
mistake.
Theodore Charles Shafer.

Mr. Shafer, a

criminal trial lawyer, was accepted by the court as an
expert in the field of criminal defense. Mr. Shafer
testified that he reviewed the trial transcripts in the
Petitioner’s case. Mr. Shafer commented on defense
counsel’s opening statement at trial, noting that
defense counsel concluded the opening statement by
saying “we feel confident that at the end of this case
you will, in fact, find Hatton guilty on all counts.” (A136). Mr. Shafer explained why this misstatement was
so prejudicial to the Petitioner:
. . . I’ve always ascribed to the theory
primacy and recency. And recency is
generally the thought is that individuals
will remember the first things that are
said to them and the last things that are
said to them. And the last thing in that
particular section of the trial was as – as
you’ve just read it what the defense

10
attorney had said to that jury.
(A-138). Mr. Shafer testified that upon being informed
of the mistake by the Petitioner and his mother,
defense counsel should have moved for a mistrial:
[A]t that stage of the proceedings there’s
been jury selection and opening
statements and I think that a course of
action would be to at least ask the court
to approach the bench and tell the judge,
the presiding judge, that I think I have
misspoken and certainly misspoken
gravely. And that I would ask the court
to at a minimum to either have the court
reporter read back what – what has been
transcribed or – and/or if there were
audiotapes, have the audio listened to to
make sure that – that, in fact, I had if I
had some thought that that had occurred.
And if so I would have at that point I
would – I would think an attorney in a
case such as this with the stakes being
what they were, would have asked that a
mistrial be declared.
(A-139-140). Mr. Shafer added that a mistrial would
have been the only reasonable remedy:
. . . I – I read through the – the various

11
documents and I’ve been rolling that
around in my head and I think in this
type of a case with – I don’t think there
would be a way to unring the bell, put the
cow back in the barn, whatever the
metaphor might be. I think that it would
be incumbent upon the attorney to – to
move for a mistrial, at least to protect the
record. It’s – it’s the – there’s no way of
knowing how that was – how that was
consumed, if you will, by the jury. And if
– if the jury sees and hears the defense
counsel making that type of a statement
as early as opening statement as to, you
know, how they looked at the rest of the
evidence in the trial and the – and the –
the questioning and the arguments that
the attorney made subsequent to making
that statement. I think that was it was
not something a reasonable attorney
would do.
....
. . . [S]ome ascribe to the strategy
that you win a case in jury selection and
opening statement. I don’t know if I
ascribe to that. But I certainly know that
you can lose a case on opening statement
and certainly by making a statement as –
as important as that, I just think it would
have infected the – the entire trial
proceeding.
(A-141-143) (emphasis added). Mr. Shafer opined that

12
defense counsel’s misstatement was “[v]ery, very
damaging” and that “the fear is [the jury] could
completely disregard anything the defense says from
that point onward.”
Mr. Shafer was asked about the tape of the
Petitioner’s interrogation, and specifically the part
where the Petitioner was asked whether the alleged
victim was reliable and the Petitioner answered “I
would say reliable, yes.” (A-145). Mr. Shafer opined
that the Petitioner’s statement that the alleged victim
was “reliable” was inadmissible character evidence and
therefore he would have moved to redact the statement
from the tape:
[W]ith the case setting as it’s set, and at
least two of the counts, and it affects all
three, affects all three, but certainly the
two counts that don’t have any eye –
other eyewitness testimony besides the –
the victims I would think that the
reasonable course of action would have

13
been to move in Limine to keep that part
of the statement out, to redact that
statement.
(A-143-144). Mr. Shafer further stated that defense
counsel should have moved to redact the Petitioner’s
statement concerning the uncharged act of the
Petitioner unintentionally touching the alleged victim’s
breast:
[T]he fact that we’re dealing with lewd
and lascivious acts on the same particular
individual, I think that the reasonable
strategy would have been to redact it as –
an uncharged prior bad – prior conduct of
– of the accused or a 404(b) objection. I
think that would have been the
reasonable course of action, knowing the
– with the facts set out the way they are,
and with the fact that – with the
statement that was said in the opening,
that – that even com – compounds the
idea that – that there are – that the
defense counsel is less than engaged in
defense of his client.
(A-147).
Finally, Mr. Shafer explained that it was

14
unreasonable for defense counsel to impeach the
alleged victim with a purported prior inconsistent
statement that was more damaging than the alleged
victim’s in-court testimony:
[T]he issues that are being raised did not
hap – they don’t happen in a vacuum.
When the – when the state introduces the
defendant’s statement and we have a
statement now that he is saying that the
victim is a reliable person. And now we
have the defense counsel questioning the
victim. And she, if I recall correctly, says
that she doesn’t remember making such
a statement. And then he impeaches her
with that statement I think that that
makes it even worse. I – I – I believe the
strategy was to impeach her and show
that she is in some way being less than
credible. And I think it was hugely, it’s a
huge backfire. And I don’t think it was
reasonable considering everything that
had gone before it. With the idea that the
jury could have certainly assumed that
because Mr. Hatton was saying that this
young lady was, in fact, reliable when she
says she doesn’t remember and then it’s
for impeachment to show that she’s less
than credible just – just doesn’t – it just
falls flat. And – and – and I think it – it’s

15
extremely inflammatory.
....
I think with this case with the
evidence that has – the jury has before it.
I think that the tactical decision that was
made was unreasonable to present that
as impeachment evidence. That’s what I
think.
(A-148-150).

16
H. REASON FOR GRANTING THE WRIT
The question presented is important.
The Petitioner contends that the Eleventh
Circuit erred by denying him a certificate of
appealability on his ineffective assistance of counsel
claims. As explained below, the Petitioner has made “a
substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2).
1.

The Petitioner’s § 2254 claims.

In his § 2254 petition (and in his state
postconviction motion), the Petitioner raised three
claims. Each claim is addressed in turn below.
i.
Defense counsel was ineffective
when, after telling the jury to find the Petitioner
guilty during opening statements, he failed to
correct his misstatement before the jury by
asking to address the jury to correct his mistake,
to move for mistrial, or take other action to
correct his misstatement.
As acknowledged by the magistrate judge in the

17
report and recommendation, at the conclusion of his
opening statement, defense counsel made the following
comments to the jury:
I don’t have to prove or disprove anything
and that we feel confident that at the end
of this case you will, in fact, find Hatton
guilty on all counts. Thank you.
(A-80) (emphasis in the original).

Shortly after

defense counsel made this statement, the Petitioner
and his mother brought to defense counsel’s attention
that he had told the jury to return a verdict of guilty
instead of not guilty. Yet defense counsel took no
further action to determine whether or not the
Petitioner was correct (such as asking the court
reporter to read back the last portion of counsel’s
opening statement) and defense counsel made no effort
to correct his misstatement with the jury, such as
asking for a mistrial.

18
In the report and recommendation (adopted by
the district court), the magistrate judge concluded that
“Petitioner cannot show that if his counsel had not
made the misstatement, the outcome of the case would
have been different.”

(A-82).

Contrary to the

magistrate judge’s conclusion, the Petitioner was
clearly prejudiced by defense counsel’s mistake.
Defense counsel encouraged the jury to render a guilty
verdict and, in doing so, assisted the prosecution in
proving its case, thus depriving the Petitioner of a full
adversarial testing of the prosecution’s case. See Clark
v. State, 690 So. 2d 1280, 1282 (Fla. 1997) (“Clark
argues that counsel’s closing argument during the
penalty phase failed the Strickland3 test, and thus
Clark received ineffective assistance of counsel.
Clark’s contention is founded in part upon statements
3

Strickland v. Washington, 466 U.S. 668 (1984).

19
his counsel presented in closing argument which had
the effect of prejudicing Clark rather than assisting
him. We agree. Consequently, we reverse the trial
court’s order denying postconviction relief and remand
for a new sentencing proceeding before a jury.”)
(footnote added). In the instant case, defense counsel’s
comment, even if inadvertent, was so contrary to the
Petitioner’s best interest that it seriously affected the
fairness and reliability of the proceedings and as a
result, had the effect of undermining confidence in the
jury’s verdict of guilt.

Defense counsel failed to

function as counsel where this comment encouraged
the jury to determine credibility issues in favor of the
prosecution and not the Petitioner.
Additionally,

during

the

state

court

postconviction evidentiary hearing, the Petitioner’s
mother testified that when the jurors heard defense

20
counsel say “find Hatton guilty on all counts,” the
jurors “were looking at each other and they were just,
‘Did I hear what I think I heard?’”4 Furthermore, as
explained by Theodore Charles Shafer (the criminal
law expert who testified during the state court
postconviction evidentiary hearing), the statement was
especially damaging because it was the last thing that
the jury heard from defense counsel:
. . . I’ve always ascribed to the theory
primacy and recency. And recency is
generally the thought is that individuals
will remember the first things that are
said to them and the last things that are
said to them. And the last thing in that
particular section of the trial was as – as
you’ve just read it what the defense

Moreover, the Petitioner stated that when the
jurors heard defense counsel say “find Hatton guilty on all
counts,” all the “jurors gave me the most puzzling look I’ve
ever seen probably in my life.” The Petitioner added that
Juror Luna furrowed his brow, squinted, and looked at him
and defense counsel as if to ask “why would he say that if
he’s the defense attorney?”
4

21
attorney had said to that jury.
(A-138).
Even if defense counsel’s statement that the jury
should find the Petitioner guilty was inadvertent,
defense counsel’s failure to take appropriate corrective
action constitutes deficient performance. After being
told of the mistake, defense counsel refused to even
check to see if he had urged the jury to convict the
Petitioner (i.e., defense counsel did not even ask to
have the court reporter read back his final opening
statement).
As explained by Mr. Shafer, upon being told
about the mistake, defense counsel was ineffective for
failing to request a mistrial:
[A]t that stage of the proceedings there’s
been jury selection and opening
statements and I think that a course of
action would be to at least ask the court
to approach the bench and tell the judge,

22
the presiding judge, that I think I have
misspoken and certainly misspoken
gravely. And that I would ask the court
to at a minimum to either have the court
reporter read back what – what has been
transcribed or – and/or if there were
audiotapes, have the audio listened to to
make sure that – that, in fact, I had if I
had some thought that that had occurred.
And if so I would have at that point I
would – I would think an attorney in a
case such as this with the stakes being
what they were, would have asked that a
mistrial be declared.
(A-139-140).
Finally, contrary to the magistrate judge’s
conclusion regarding prejudice, during the state court
postconviction

evidentiary

hearing,

Mr.

Shafer

explained that defense counsel’s statement “infected”
the entire trial:
. . . I – I read through the – the various
documents and I’ve been rolling that
around in my head and I think in this
type of a case with – I don’t think there
would be a way to unring the bell, put the
cow back in the barn, whatever the

23
metaphor might be. I think that it would
be incumbent upon the attorney to – to
move for a mistrial, at least to protect the
record. It’s – it’s the – there’s no way of
knowing how that was – how that was
consumed, if you will, by the jury. And if
– if the jury sees and hears the defense
counsel making that type of a statement
as early as opening statement as to, you
know, how they looked at the rest of the
evidence in the trial and the – and the –
the questioning and the arguments that
the attorney made subsequent to making
that statement. I think that was it was
not something a reasonable attorney
would do.
....
. . . [S]ome ascribe to the strategy
that you win a case in jury selection and
opening statement. I don’t know if I
ascribe to that. But I certainly know that
you can lose a case on opening statement
and certainly by making a statement as –
as important as that, I just think it would
have infected the – the entire trial
proceeding.
(A-141-143) (emphasis added). Mr. Shafer opined that
defense counsel’s misstatement was “[v]ery, very

24
damaging” and that “the fear is [the jury] could
completely disregard anything the defense says from
that point onward.” See, e.g., Mathis v. State, 973 So.
2d 1153, 1156 (Fla. 1st DCA 2006) (“At the evidentiary
hearing on remand, Tony Bajoczky, an attorney who
was accepted as an expert in criminal defense trial
work, testified that he had reviewed the record in this
case and opined that appellant’s trial counsel was
ineffective.”).
In this case, there could be no strategic basis for
failing to take corrective action. Notably, during the
state court postconviction evidentiary hearing, defense
counsel offered no strategic reason for failing to act.
Applying the Strickland standard to the state
court record, it is clear that defense counsel was
ineffective for failing to take action after he told the
jury to find the Petitioner guilty. Absent counsel’s

25
ineffectiveness in the instant case, the result of the
proceeding would have been different.
ii.
Defense counsel was ineffective by
failing to file a motion in limine or otherwise
seek to exclude from evidence those portions of
the Petitioner’s statement to law enforcement
officials which were inadmissible character
evidence and which bolstered the credibility of
the alleged victim and those portions of the
statement which constituted evidence of other
wrongs or bad acts, were not relevant to the
charged offenses, and for which the prejudicial
impact far outweighed any possible probative
value.
In his § 2254 petition, the Petitioner alleged that
defense counsel was ineffective by failing to file a
motion in limine or otherwise seek to exclude from
evidence those portions of the Petitioner’s statement to
law enforcement officials (1) which were inadmissible
character evidence and which bolstered the credibility
of the alleged victim and (2) those portions of the
statement which constituted evidence of other wrongs

26
or bad acts, were not relevant to the charged offenses,
and for which the prejudicial impact far outweighed
any possible probative value.

The Petitioner was

prejudiced by defense counsel’s deficiencies because
these actions led to highly prejudicial evidence being
admitted for the jury’s consideration in a case that
rested exclusively on the jury’s assessment of the
Petitioner’s credibility versus that of the alleged
victim. Further, the admission of evidence of other bad
acts improperly allowed the jury to consider propensity
and further cast doubt on the credibility of the
Petitioner.
In this case, the Petitioner was charged with
three counts of lewd and lascivious molestation. Count
1 purportedly occurred between December 2003 and
September 2004 in a swimming pool and involved the
allegation that the Petitioner had the alleged victim

27
touch his penis and that he kissed her.

Count 2

purportedly occurred between September 27, 2004, and
June 13, 2005, and asserted that the Petitioner
“humped” the alleged victim through her clothing.
Count 3 purportedly occurred on June 14, 2005, and
asserted that the Petitioner placed his hands inside the
alleged victim’s shorts, touching her buttocks. At no
point did the prosecution present evidence or argue
that any other inappropriate contact occurred between
the Petitioner and the alleged victim during the trial.
No Williams5 rule notice was filed by the prosecution at
any point in time. During opening statements, defense
counsel told the jury that they would hear the
Petitioner’s statement, that he met freely and
voluntarily with the police, and he denied any
improper touching, molesting, or sexually abusing the

5

Williams v. State, 110 So. 2d 654 (Fla. 1959).

28
alleged victim.
The Petitioner’s interrogation statement was
admitted during the prosecution’s case, played during
the prosecution’s closing argument, and was replayed
to the jury at their request during deliberations. At
the beginning of the interrogation – before the
Petitioner was confronted with the actual allegations
in this case – the following occurred:
DETECTIVE ALTMAN: Okay.
Would you, uh, how would you categorize
her as a kid, is she a good kid?
STEVE HATTON: A very good kid.
DETECTIVE ALTMAN: Okay. Is
she pretty reliable?
STEVE HATTON: Uh, I would say
reliable, yes.
(Emphasis added). The following uncharged act was
also played for the jury:
DETECTIVE ALTMAN: Have you

29
ever touched her breasts with your
hands?
STEVE HATTON: Yes, I have, yes,
sir.
DETECTIVE ALTMAN: Tell – tell
me about that.
STEVE HATTON: Well, I think
one time, uh, probably been a year or so
ago –
DETECTIVE ALTMAN: Uh-huh.
STEVE HATTON: – uh, getting
dressed, I don’t – I don’t know how to
describe the situation, I don’t even
remember.
DETECTIVE ALTMAN: Uh-huh.
STEVE HATTON: Uh, I’m almost
certain I have touched her breasts before.
Have I fondled her breasts? No I haven’t.
That – that very well can be termed as,
you know, fondling, I guess, I don’t –
DETECTIVE ALTMAN: In what
manner did you touch her? That’s –
that’s my question. You had your hand
on her breast, what happened?

30
STEVE HATTON: Uh, I don’t
remember unless, uh, I don’t know if she
was injured. I’m sorry, I – I don’t
remember.
DETECTIVE ALTMAN: But you
do remember touching her breasts?
STEVE HATTON: Yes, I believe I
have touched her breasts before.
Finally, the jury also heard the following from the
interrogation: (1) the Petitioner stated that he had
been in the bathroom when the alleged victim was in
the shower and he denied ever being undressed in the
bathroom while the alleged victim was in the shower;
(2) the Petitioner acknowledged that the alleged victim
had sat on his lap “a bunch”; (3) the Petitioner noted
they lived in a small house and that the alleged victim
has probably seen him naked (i.e., she may have come
into the bathroom while he was dressing or getting in
the shower); (4) the Petitioner acknowledged laying in

31
bed with the alleged victim several times – to talk, to
say goodnight, to watch television, or to wrestle – but
he has never touched her inappropriately; and (5) the
Petitioner acknowledged that he and the alleged victim
slept in the same bed in Marco Island since there were
no sheets for the couch, but nothing occurred.
Defense counsel was ineffective in failing to file
a motion in limine to exclude from evidence the
Petitioner’s statements that the alleged victim was
“reliable.” In its order denying this claim, the state
postconviction court held that had a motion in limine
been filed, the motion would have been denied because
the Petitioner’s statements were admissible. Contrary
to the state postconviction court’s order, the statements
in question were inadmissible character evidence.
Moreover, one witness/party is not permitted to
comment on another witness’ credibility. Finally, the

32
prejudicial impact of this evidence far outweighed any
probative value pursuant to section 90.403, Florida
Statutes (especially since at the time of the comment,
the Petitioner was being set-up by the detective and he
had not even been informed as to the nature of the
allegations). See Moton v. State, 697 So. 2d 1271, 1271
(Fla. 1st DCA 1997) (“Evidence of the character of a
witness is irrelevant and thus inadmissible. See §§
90.402 and 90.404, Fla. Stat. The only exception is
when that character has been attacked. § 90.609, Fla.
Stat. Proof of the characteristic is limited to testimony
in the form of reputation. § 90.609, Fla. Stat.”); Acosta
v. State, 798 So. 2d 809, 810 (Fla. 2d DCA 2001) (“It is
clearly error for one witness to testify as to the
credibility of another witness.”). The Petitioner was
prejudiced by defense counsel’s failure in that the jury
heard – from the Petitioner no less – testimony that

33
bolstered the alleged victim’s credibility in an
impermissible fashion. Defense counsel’s failure to
exclude the good character evidence that militated in
favor of the alleged victim over the Petitioner increased
the likelihood of conviction in this case.
during

the

prosecutor’s

closing

Notably,

argument,

the

prosecutor highlighted the Petitioner’s statement that
the alleged victim was “reliable” – first by playing
again for the jury that portion of the interrogation and
then arguing:
Feel free to listen to his entire statement
because what he said is not only the part
I played, she’s a good kid, she’s reliable.
The only issue in this case was whether the alleged
victim was “reliable” with her allegations against the
Petitioner.

It is hard to imagine anything more

damaging than the prosecutor telling the jury to find
the Petitioner guilty because the defendant himself has

34
already said that she is “reliable.”
Defense counsel was also ineffective in failing to
exclude the portions of the Petitioner’s statement that
were subject to reasonable interpretation as evidence
of other bad acts or wrongs. This would include the
Petitioner’s statement that he had touched the alleged
victim’s breasts where there was no charge involving a
touch of the breasts in the information, that he slept in
the same bed with the alleged victim in Marco Island,
that he had lain on top of the alleged victim on other
occasions, that the alleged victim may have seen him
naked, and that the alleged victim frequently sat on
his lap.

The above described actions were not

sufficiently similar to be admissible as similar fact
evidence under McLean v. State, 934 So. 2d 1248, 1258
(Fla. 2006). See also Griffith v. State, 723 So. 2d 860,
861-862 (Fla. 1st DCA 1998). Further, any possible

35
probative

value

of

those

statements

was

far

outweighed by the prejudicial impact under section
90.403. The Petitioner was prejudiced due to defense
counsel’s deficient performance as there exists a
reasonable

probability

that

the

inappropriate

admission of the evidence of other bad acts
impermissibly contributed to the jury’s verdict of guilt.
See also Woodard v. State, 978 So. 2d 217 (Fla.1st DCA
2008).
During

the

state

court

postconviction

evidentiary hearing, although defense counsel stated
that he wanted the entire tape of the interrogation
played for the jury, he admitted “I can’t tell you why
now.” In fact, even though defense counsel stated that
he has won in previous cases “with whole tapes coming
in,” he acknowledged “maybe that’s what lost it in this
case.”

When Mr. Shafer was asked about defense

36
counsel’s failure to redact the inadmissible evidence,
Mr. Shafer opined that the Petitioner’s statement that
the alleged victim was “reliable” was inadmissible
character evidence and therefore he would have moved
to redact the statement from the tape:
[W]ith the case setting as it’s set, and at
least two of the counts, and it affects all
three, affects all three, but certainly the
two counts that don’t have any eye –
other eyewitness testimony besides the –
the victims I would think that the
reasonable course of action would have
been to move in Limine to keep that part
of the statement out, to redact that
statement.
(A-143-144). Mr. Shafer further stated that defense
counsel should have moved to redact the Petitioner’s
statement concerning the uncharged act of the
Petitioner unintentionally touching the alleged victim’s
breast:
[T]he fact that we’re dealing with lewd
and lascivious acts on the same particular

37
individual, I think that the reasonable
strategy would have been to redact it as –
an uncharged prior bad – prior conduct of
– of the accused or a 404(b) objection. I
think that would have been the
reasonable course of action, knowing the
– with the facts set out the way they are,
and with the fact that – with the
statement that was said in the opening,
that – that even com – compounds the
idea that – that there are – that the
defense counsel is less than engaged in
defense of his client.
(A-147).
Thus, for all of the reasons set forth above,
defense counsel was ineffective for failing to redact
portions of the Petitioner’s interrogation that were
inadmissible. Absent counsel’s ineffectiveness in the
instant case, the result of the proceeding would have
been different and/or counsel’s ineffectiveness affected
the fairness and reliability of the proceeding, thereby
undermining any confidence in the outcome.

38
iii.
Defense counsel was ineffective when
he introduced into evidence a prior inconsistent
statement of the alleged victim wherein the
alleged victim had told a police officer that
during the allegations that formed the basis of
count 2 the Petitioner had told the alleged victim
that he “wished he could put his penis inside
me.”
In his § 2254 petition, the Petitioner alleged that
defense counsel was ineffective when he introduced
into evidence a prior inconsistent statement of the
alleged victim wherein the alleged victim had told a
police officer that during the allegations that formed
the basis of count 2 the Petitioner had told the alleged
victim that he “wished he could put his penis inside
me.” At trial, during the alleged victim’s testimony on
direct examination by the prosecution, the alleged
victim testified that she was lying on her bed going to
sleep when the Petitioner entered the room and got on
top of her. The alleged victim testified that they both

39
were fully clothed. The alleged victim testified that the
Petitioner started “humping” her by moving back and
forth on top of her. The prosecutor asked the victim if
the Petitioner said anything during the purported
incident and the alleged victim replied “No, sir.” The
alleged victim stated that the purported incident did
not last long and ended when the Petitioner got up and
left.
On cross-examination, defense counsel asked the
alleged victim if she recalled giving a statement to the
police and she responded she did. Defense counsel
then asked the alleged victim if she told the police that
the Petitioner said that he “wished he could really stick
his penis inside” her during the incident. The alleged
victim said she remembered making that statement to
the police. The alleged victim agreed that she did not
testify in court that the Petitioner said those words

40
because she “d[id]n’t really remember.”
An element to the charge of lewd and lascivious
conduct is whether or not the defendant commits an
act with the requisite lewd intent. See Williamson v.
State, 839 So. 2d 921, 923 (Fla. 2d DCA 2003). The
requisite intent has been defined as “wicked, lustful,
unchaste, licentious, or sensual design on the part of
the perpetrator.” Durant v. State, 647 So. 2d 163, 164
(Fla. 2d DCA 1994) (citation omitted).
In the instant case, by impeaching the alleged
victim with the statement she made to the police that
the Petitioner purportedly told her that he “wished he
could stick his penis in” her, defense counsel presented
the only testimony to the jury of any unlawful intent
on the part of the Petitioner. Had defense counsel
forgone this ill-taken path, the jury would not have
heard this highly prejudicial testimony – as the alleged

41
victim had maintained in her direct examination that
the Petitioner said nothing during the incident. Prior
to the ill-conceived impeachment, the jury knew only
that for a few brief seconds the Petitioner and the
alleged victim had contact while fully clothed.
In

the

report

and

recommendation,

the

magistrate judge acknowledged that defense counsel’s
impeachment of the alleged victim “allowed a relatively
worse statement to come into the record . . . .” (A-91).
The magistrate judge, however, “disagree[d] that the
impeachment strategy was so wholly unreasonable as
to rise to the level of deficient performance under
Strickland.”

(A-91).

Contrary to the magistrate

judge’s conclusion, although defense counsel stated
during the state court postconviction evidentiary
hearing that he wanted the entire tape of the
interrogation played for the jury, he admitted “I can’t

42
tell you why now.” Thus, the state court record refutes
the assertion that defense counsel’s actions were
“strategic.” Moreover, the relevant question is not
whether counsel’s choices were strategic, but whether
they were reasonable. See Roe v. Flores-Ortega, 528
U.S. 470, 481 (2000). Defense counsel’s actions in the
instant case were not reasonable.
As explained by Mr. Shafer during the state
court postconviction evidentiary hearing, it was
unreasonable for defense counsel to impeach the
alleged victim with a purported prior inconsistent
statement that was more damaging than the alleged
victim’s in-court testimony:
[T]he issues that are being raised did not
hap – they don’t happen in a vacuum.
When the – when the state introduces the
defendant’s statement and we have a
statement now that he is saying that the
victim is a reliable person. And now we
have the defense counsel questioning the

43
victim. And she, if I recall correctly, says
that she doesn’t remember making such
a statement. And then he impeaches her
with that statement I think that that
makes it even worse. I – I – I believe the
strategy was to impeach her and show
that she is in some way being less than
credible. And I think it was hugely, it’s a
huge backfire. And I don’t think it was
reasonable considering everything that
had gone before it. With the idea that the
jury could have certainly assumed that
because Mr. Hatton was saying that this
young lady was, in fact, reliable when she
says she doesn’t remember and then it’s
for impeachment to show that she’s less
than credible just – just doesn’t – it just
falls flat. And – and – and I think it – it’s
extremely inflammatory.
....
I think with this case with the
evidence that has – the jury has before it.
I think that the tactical decision that was
made was unreasonable to present that as
impeachment evidence. That’s what I
think.
(A-148-150) (emphasis added).
The Petitioner was severely prejudiced by

44
defense counsel’s actions because the only evidence of
criminal intent was brought to the jury’s attention by
defense counsel.

Any

minimal

value

of

the

impeachment of the alleged victim was far outweighed
by the prejudicial impact of the testimony, was at odds
with the theory of defense at trial, and damaged the
Petitioner’s credibility. The decision to impeach the
alleged victim with evidence more damaging than the
alleged victim’s trial testimony was a “patently
unreasonable” trial strategy. See Bowers v. State, 929
So. 2d 1199, 1202 (Fla. 2d DCA 2006) (citation
omitted).

Defense

counsel’s

unreasonable

impeachment of the alleged victim by bringing out the
damaging prior statement detracted from the overall
trial strategy to the degree that confidence in the
outcome of the jury’s verdict is called into question.
Thus, for all of the reasons set forth above,

45
defense counsel was ineffective for attempting to
impeach the alleged victim with a purported prior
inconsistent statement that was more damaging than
the alleged victim’s in-court testimony.

Absent

counsel’s ineffectiveness in the instant case, the result
of the proceeding would have been different and/or
counsel’s ineffectiveness affected the fairness and
reliability of the proceeding, thereby undermining any
confidence in the outcome.
2.
The Petitioner meets the standard for
a certificate of appealability.
To be entitled to a certificate of appealability,
the Petitioner needed to show only “that jurists of
reason could disagree with the district court’s
resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El

46
v. Cockrell, 537 U.S. 322, 327 (2003). The Petitioner
satisfies this requirement because he has (1) made “a
substantial showing of the denial of a constitutional
right” (i.e., his right to effective assistance of counsel)
and (2) the magistrate judge’s resolution of this claim
(later adopted by the district court) is “debatable
amongst jurists of reason.” See 28 U.S.C. § 2253(c)(2).
The Petitioner’s § 2254 claims are “adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S.
at 336.
Accordingly, the Eleventh Circuit should have
granted a certificate of appealability in this case. The
Petitioner therefore asks this Court to address this
important issue by either accepting this case for
plenary review or remanding it to the Eleventh Circuit
for the consideration it deserves.

47
I. CONCLUSION
The Petitioner requests the Court to grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

